                                                                  United States Department of State
                                                                  and the Broadcasting Board of Governors

                                                                  Office of Inspector General



UNCLASSIFIED

TO:            SCA – Nisha D. Biswal                                                     September 18, 2014
               A/OPE – Corey M. Rindner

FROM:          OIG/AUD – Norman P. Brown

SUBJECT: Management Assistance Report—Termination of Construction Grants to Omran
         Holding Group (AUD-CG-14-37)

The Office of Audits for the U.S. Department of State (Department) Office of Inspector General
(OIG) is currently conducting an audit of the Department’s selection, positioning, training, and
oversight responsibilities of grants officer representatives (GORs). The objective of this audit is
to determine the extent to which the Department’s GORs are selected, positioned, and trained to
successfully perform their assigned grant administration and oversight responsibilities. During
the audit, OIG analyzed internal Department policies and procedures, interviewed officials
within multiple bureaus and posts, and reviewed a sample of 21 grants to determine compliance
with Federal and Department regulations. Based on preliminary results of the audited sample,
OIG identified areas of concern related to two construction grants being executed in Afghanistan
by Omran Holding Group (OHG) that require immediate attention. These areas of concern
include misuse of Government funds, significant noncompliance with Federal regulations, and
inaccurate financial reporting. Additionally, OHG failed to comply with the terms of one grant
agreement by beginning construction without required design approval, and also began
construction of the building in the wrong location. We therefore recommended, among other
actions, that the Bureau of South and Central Asian Affairs (SCA) immediately terminate grant
agreements S-AF200-13-CA-012 and S-AF200-13-CA-014 with OHG, and that the Bureau of
Administration’s Office of the Procurement Executive (A/OPE) develop Department guidance
regarding the use of Federal assistance funds for overseas construction.

In response to the draft report, SCA concurred with Recommendations 1-4 (see Appendix A) and
A/OPE concurred with Recommendation 5 (see Appendix B). Based on these responses, OIG
considers all five recommendations resolved, pending further action. Management’s responses
and OIG’s replies to those responses are included after each recommendation.

Background

OHG, a commercial organization, was awarded two Department construction grants to build
Media Operations Centers (MOCs) at two Afghan universities 1 on September 23, 2013. The

1
  Grant S-AF200-13-CA-012 was awarded to OHG to construct an MOC at Balkh University for $3,782,980, and
Grant S-AF200-13-CA-014 was awarded to OHG to construct an MOC at Nangarhar University for $3,482,348.
Because OHG often did not track expenditures separately for these two awards, all numeric references within this
report refer to the combined total of the two grants.
                                                        1
grant awards totaled $7,265,328, and the periods of performance for both grants were October 1,
2013, through December 31, 2014. As of July 2014, OHG had requested and received
$2,172,454 (30 percent of total grant funding), which had been divided between OHG and two
subcontractors: Capitalize Omran 2—a company based in Washington, DC, responsible for
managing the overall project—and TriVision Studios, the firm responsible for outfitting the
MOCs with broadcasting equipment. According to the grant officer, in July 2014, OHG
submitted amendments for each grant, requesting a total of $750,000 in additional funds.

The grants required that the recipient develop building designs for the MOCs and that these
designs be approved by the Department prior to the commencement of construction. However,
OHG “jumped” the construction schedule and began to construct the Balkh University MOC in
December 2013, without prior approval from the Department. 3 As a result, certain aspects of the
newly constructed structure were not in accordance with the Department’s requirements for the
building design. Additionally, OHG began the Balkh University MOC construction in the wrong
location, based on the direction of a local Afghan government official who did not have the
authority to direct the grantee, resulting in the need to demolish the new structure. Due to these
issues, the construction related to both grants was suspended in January 2014 and has not yet
resumed. 4

OIG Findings Related to Omran Holding Group and Its Use of Grant Funds

As of the date of this report, OHG had not provided a complete listing of grant expenditures in
accordance with the grant’s audit clause, 5 sufficient answers to numerous OIG inquiries
regarding the use of funds, or an accurate reconciliation of its accounting records. OIG identified
$502,890 in unallowable and unsupported costs, including a loan to an employee and costs
incurred prior to the period of performance. OIG also found that OHG had more than
$1.2 million in funds on hand, which was in excess of its current needs. Finally, OHG
misrepresented its financial position on quarterly reports submitted to the Department. Because
OHG could not account for Federal funds or accurately report expenditures to the Department or
OIG, we recommended that both grants be terminated immediately.

Lack of Supporting Documentation
On April 24, 2014, OIG notified OHG that it had been selected for an audit and made an initial
request for grant documentation, which included a detailed list of expenditures related to each
grant. On June 25, 2014, after a total of nine requests, OHG provided partial documentation of
grant expenditures; however, the information was incomplete. As of August 2014, more than

2
  Capitalize Omran is a wholly-owned subsidiary of Capitalize LLC, and its only source of revenue was the two
subject grants. OHG also lists Capitalize Omran as a subsidiary on its Web site; therefore, OIG is unclear on the true
nature of the relationship between the companies.
3
  The agreements for each grant state, “The GOR or GO has the right to halt construction and no construction
activities other than those explicitly approved under the agreement may be performed.”
4
  Once it was discovered that the structure was in the wrong location and built with the wrong design, the GOR
halted activities, with the intent of resuming once OHG and the Department agreed on the demolition and
reconstruction of the building.
5
  The clause states, “The recipient agrees that the U.S. Government or any of its duly authorized representatives
shall… have access to and the right to examine any directly pertinent books, documents, papers and records of the
recipient involving transactions related to this award.”
                                                          2
3 months after OIG made its first request for information, OHG had not provided a complete
listing of grant expenditures or sufficient answers to numerous OIG inquiries regarding the use
of funds.

Unallowable and Unsupported Costs
OHG agreed to execute the grants in accordance with OMB Circular A-110, 6 and the awards also
incorporated 7 the cost standards in FAR Part 31, Contract Cost Principles and Procedures.
However, after a preliminary review and analysis of the documentation that was provided, OIG
was unable to conduct a detailed reconciliation of OHG’s or its subsidiary’s accounting records,
and we identified numerous instances of noncompliance with Federal regulations. For example,
OIG selected various expenditures from OHG and Capitalize Omran and found unallowable
costs expensed to the grant for loans to employees, pre-award costs, indirect costs, construction
materials, and monitoring and evaluation. As a result, OIG determined that OHG charged
unallowable expenses to the grant totaling $502,890.

FAR Part 31.201-2 states that a cost is allowable only when the cost complies with all of the
following requirements: reasonableness, allocability, generally accepted accounting principles,
the terms of the contract, and any limitations set forth by FAR Part 31. OIG found the following
instances of unallowable costs within OHG’s expenditures for the two grants:

    •    OHG utilized grant funds to provide a $15,000 unsecured loan to an employee, to be
         repaid with 3.25 percent interest. There was no justification provided or grant officer
         approval for this loan. As this cost is not reasonable, allocable, or within the terms of the
         agreement, OIG determined it to be an unallowable cost.

    •    OIG found that a 12 percent overhead rate was being applied to certain direct
         construction costs associated with the grants, totaling at least $31,423. OIG questioned
         OHG personnel because indirect cost rates were not included in the approved budgets for
         the awards, and the grant terms and conditions did not address a negotiated indirect cost
         rate agreement (NICRA). 8 OHG personnel stated that there was not an indirect cost rate
         or overhead rate in the budget, but they added these costs into their direct costs as they
         saw fit. This is not in accordance with FAR regulations 9 for determining indirect costs
         rates; therefore, OIG found these to be unallowable costs.

6
  Uniform Administrative Requirements for Grants and Agreements With Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations, September 30, 1999.
7
  22 CFR 145.27, Allowable Costs, states that “the allowability of costs incurred by commercial organizations … is
determined in accordance with the provisions of the FAR at 48 CFR part 31.”
8
  Grants Policy Directive 41, Close-Out of Federal Assistance Awards, dated January 2, 2013, states, “Organizations
(usually U.S.-based organizations, although this can also apply to large non-U.S. (foreign) organizations) whose
funding is derived from federal assistance have the option of establishing indirect cost rate agreements to capture
‘overhead’ or other administrative indirect costs. These rates are negotiated between the organization and the
‘cognizant’ federal agency. Commonly, the ‘cognizant’ federal agency is the agency that provides the largest dollar
volume of federal assistance funds to the organization. The resulting NICRA is binding on the entire U.S.
government.”
9
  FAR 31.203 states that “after direct costs have been determined and charged directly to the contract…indirect costs
are those remaining to be allocated,” and further provides guidance on how to calculate indirect cost rates. OHG
applied overhead rates prior to charging direct costs and without providing a reasonable basis for rate calculation.
                                                         3
     •   OHG charged $22,166 of salary and monitoring and evaluation expenses during
         September 2013, which was prior to the period of performance. OHG later stated that
         these expenses were not charged to the grant; however, we were not able to verify this
         statement because the invoices submitted did not reconcile with accounting records.
         Under 22 CFR 145.28, “where a funding period is specified, a recipient may charge to the
         grant only allowable costs resulting from obligations incurred during the funding period.”
         Therefore, OIG found the costs to be unallowable.

     •   OHG charged $114,000 in “monitoring and evaluation” expenses 10 from October 2013
         through May 2014, of which OHG could not provide adequate support or explanation.
         Specifically, OHG first provided internal “invoices,” which did not provide details on the
         work performed. Upon further inquiry, OHG provided a spreadsheet and supporting
         documents, which did not equate to the invoices previously provided. Upon further
         analysis of the spreadsheet and supporting documents, OIG found numerous
         inconsistencies between expensed items and supporting documentation that was
         previously provided. For example, it appeared that OHG double-counted salary expense
         and accounting fees as both direct project costs and monitoring and evaluation costs.
         Because we could not reconcile the spreadsheet, supporting documents, and other
         accounting records, OIG determined that the monitoring and evaluation expense was
         unreasonable, unallocable, and not in accordance with generally accepted accounting
         principles. Therefore, OIG found the costs to be unallowable.

     •   OHG provided an excel spreadsheet totaling $320,301, which appeared to be a manual
         inventory list, as a portion of the grant expenses. OIG could not determine whether these
         materials were approved by the Department, as required, or if they had previously been
         charged to other Government-funded projects, 11 or even if they were needed to build the
         MOCs. Therefore, OIG determined that the total amount of expensed materials of
         $320,301 was unallowable because it was not allocable and not kept in accordance with
         generally accepted accounting principles.

OIG believes that these examples are indicative of OHG’s inability to properly account for grant
funds in accordance with Federal and Department requirements, and they provide sufficient
evidence for terminating both grants immediately.

Unspent Funds
OHG reported that it had approximately $1,203,426 of grant funds that had not yet been spent as
of July 2014. OIG finds this to be inappropriate. The grant agreements state that “each payment
must be the amount of expenditures actually incurred during the requested period.” Despite this
requirement, OHG repeatedly requested and received advance payments for the grants by
representing to the GOR that OHG “needed additional cash flow support.” Under 22 CFR
145.22, “cash advances to a recipient organization shall be limited to the minimum amounts
10
   The approved grant budgets included $108,200 in “Project Inspection Fees,” which included fees for an
independent inspector and quarterly inspection visits by the management team.
11
   Along with the inventory list, OHG also voluntarily provided 18 receipts for 7 items on the list. Upon review of
the provided receipts, OIG found that 12 of 18 were dated prior to the grants’ periods of performance, many of
which were dated more than 10 months before the project began.
                                                          4
needed and be timed to be in accordance with the actual, immediate cash requirements of the
recipient organization in carrying out the purpose of the approved program or project.” OHG did
not have actual, immediate cash requirements since over half of the received funds remained in
the bank and had not yet been spent by OHG. Clearly, OHG’s requests for cash advances were
not for OHG’s “immediate cash requirements.”

Inaccurate Reporting of Financial Position
OIG also found that OHG was incorrectly reporting its financial position to the Department on
quarterly Federal financial reports (SF-425). 12 For example, OIG identified a number of
inconsistencies on the report dated April 30, 2014. Specifically, OHG reported no “Cash on
Hand” as of March 31, 2014; however, financial records indicated that there were unused funds
in OHG bank accounts. Additionally, OHG reported no “Indirect Expense” as of March 31,
2014; however, OIG found that OHG had charged at least $31,423 in indirect expenses to the
grant.

OIG Finding of Inadequate Department Oversight of Construction Grants

OIG also noted concerns related to the Department’s oversight of construction grants, in general.
Specifically, the Department had no policies or procedures for awarding or overseeing
construction grants, which resulted in ineffective construction grant agreements. For example,
the OHG grant agreements lacked details that are normally included in construction contracts,
and the terms and conditions were created by the GOR without documented input or approval
from Department legal representatives or construction specialists. Further, the Department had
not adequately devoted resources to the oversight of these grants.

During our review, we determined that the U.S. Agency for International Development (USAID)
mandates that contracts must be used when the award is solely for construction. Specifically,
USAID issued Policy ADS 303.3.30, “Limitation on Construction under Assistance,” dated
August 16, 2013, to address the need for construction contracts and task orders to manage similar
types of projects:

         The use of contracts and task orders to manage both the design and construction
         of infrastructure projects allows the Agency to specify that engineering
         requirements including design, tendering, and construction oversight activities, as
         well as safety or other operational construction standards/specifications are met.
         In contrast, the agreement conditions with grantees under assistance awards
         [minimize] the Agency’s ability to ensure that the design and construction
         activities are carried out properly.

OIG concludes that the Department should develop similar guidelines that define the
appropriate procurement vehicles for construction projects.




12
  The grants’ terms and conditions include the requirement for the recipient to submit quarterly and financial reports
30 days after the calendar year quarter (April 30, July 30, October 30, and January 30).
                                                          5
Grant Termination

As a result of the issues detailed in this report, specifically OHG’s inability to account for its use
of grant funds, OIG recommended that both grants be immediately terminated for cause. The
U.S. Department of State Standard Terms and Conditions for Foreign Organizations, which is
incorporated into the OHG grant agreements by reference, states the following regarding the
termination of grants for cause:

       DOS reserves the right to terminate the award in whole or in part at any time
       before the project period end date, whenever it is determined that the recipients
       have failed to comply with the conditions of the award.

       DOS must promptly notify the recipients in writing of the determination and
       reasons for the termination, together with the effective date. Payments made to
       recipients or recoveries by DOS awards terminated for cause must be in
       accordance with the legal rights and liabilities of the parties.

If it is determined that the MOC projects at the Afghan universities should continue, OIG
recommends that SCA use an alternative procurement vehicle to obtain construction
services for the MOC projects to maximize the Department’s ability to ensure that the
design and construction activities are carried out properly. Further, the Department
should no longer issue any construction grants until the Department develops guidance
that dictates the appropriate procurement vehicles for construction projects.

Recommendation 1: OIG recommends that the Bureau of South and Central Asian Affairs
immediately terminate grant agreements S-AF200-13-CA-012 and S-AF200-13-CA-014 with
Omran Holding Group and deobligate the $5,092,874 in remaining funds.

Management Response: SCA concurred with the recommendation, stating that “the termination
letters for each award are currently in the clearance process” and that it “will deobligate all
remaining funding from these awards.”

OIG Reply: OIG considers the recommendation resolved. This recommendation can be closed
when OIG reviews and accepts documentation showing that SCA has terminated grant
agreements S-AF200-13-CA-012 and S-AF200-13-CA-014, and deobligated the $5,092,874 in
remaining funds.

Recommendation 2: OIG recommends that the Bureau of South and Central Asian Affairs
direct Omran Holding Group to reimburse the Department for the $1,203,426 in unspent funds
related to grant agreements S-AF200-13-CA-012 and S-AF200-13-CA-014, and verify that the
Department has received reimbursement for all unspent funds.

Management Response: SCA concurred with recommendation, stating that “instructions for
Omran to return funds overpaid on awards S-AF200-13-CA-012 and S-AF200-13-CA-014 are
included in the termination letters.”


                                                  6
OIG Reply: OIG considers the recommendation resolved. This recommendation can be closed
when OIG reviews and accepts documentation showing that OHG has reimbursed the
Department for the $1,203,426 in unspent funds related to grant agreements S-AF200-13-CA-
012 and S-AF200-13-CA-014.

Recommendation 3: OIG recommends that the Bureau of South and Central Asian Affairs
require the grants officer to determine the allowability of $502,890 in potentially unallowable
costs identified by OIG, direct Omran Holding Group to refund the Department any costs
determined to be unallowable, and verify that funds have been refunded.

Management Response: SCA concurred with the recommendation, stating that it “will
determine the allowability of questioned costs once OHG has submitted their final financial
reports.”

OIG Reply: OIG considers the recommendation resolved. This recommendation can be closed
when OIG reviews and accepts documentation showing that the grants officer has determined the
allowability of $502,890 in potentially unallowable costs identified by OIG, and that OHG has
refunded the Department any costs determined to be unallowable.

Recommendation 4: OIG recommends that the Bureau of South and Central Asian Affairs
require Omran Holding Group to demolish the existing structure at Balkh University, at Omran
Holding Group’s expense, within a reasonable timeframe as determined by the grants officer and
verify that the structure has been demolished with no cost to the Department.

Management Response: SCA concurred with the recommendation, stating that “in the
termination letter for award number SAF200-13CA012, OHG has been instructed to demolish
the existing structure at Balkh University no later than October 31, 2014.” SCA further stated
that “OHG is also required to provide photos of the site to demonstrate that the building has been
demolished.”

OIG Reply: OIG considers the recommendation resolved. This recommendation can be closed
when OIG reviews and accepts documentation showing that OHG has demolished the existing
structure at Balkh University.

Recommendation 5: OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, develop Department guidance regarding the use of Federal assistance
funds for overseas construction, including the use of appropriate procurement vehicles, such as
contracts, for construction. Until such guidance is developed, no construction grants should be
issued by the Department.

Management Response: A/OPE concurred with the recommendation, stating that it is “working
with the Department’s Legal Advisors on determining which Statutory Authorities and
appropriations expressly allow, or disallow construction projects to be executed with a federal
assistance agreement.” A/OPE also stated that they are developing a Federal Assistance
Management Advisory to determine the amount of construction based projects, and “will then


                                                7
develop a Department policy on construction including the use of appropriate procurement
vehicles.”

OIG Reply: OIG considers the recommendation resolved. This recommendation can be closed
when OIG reviews and accepts documentation showing that the Department has developed and
implemented policies regarding the use of Federal assistance funds for overseas construction,
including the use of appropriate procurement vehicles.

As the action offices for these recommendations, please provide information on actions taken or
planned for the five recommendations within 30 days of the date of this letter. Actions taken or
planned are subject to follow-up and reporting in accordance with the enclosed compliance
response information.

Because of the concerns outlined above, OIG will also provide this report to the Department of
Defense OIG, which has oversight responsibility for the large number of contracts OHG holds
with the Department of Defense.

If you have any questions, please contact me, Assistant Inspector General for Audits, by email at
                                       [Redacted] (b) (6)
[Redacted] (b) (6)
          @state.gov or at (202) 284               , or Melinda M. Perez, Director, Contracts and Grants
                                                                [Redacted] (b) (6)
                     [Redacted] (b) (6)
Division, by email at                   @state.gov or at (703) 284-




cc: S/SRAP – Daniel F. Feldman
    S/SRAP – Jonathan J. Carpenter
    NEA-SCA/EX – Lee R. Lohman
    SCA/PPD – Grachel J. Humphries
    A/OPE/FA – Jeffrey D. Johnson




Attachments: As stated




                                                            8
                                                                    Appendix A
Bureau of South and Central Asian Affairs Response to Recommendations 1–4




                                                          United States Depa rtment of State

                                                          Washington, D.C. 20510




     UNCLASSIFIED
     MEMORAND UM

                                                               September 3, 2014

     TO:                O IG/AUD- Norman P. Brown

     FROM:              SRAP - Dan Feldman         ~


     SUBJ ECT :         Draft Management Assistance report - Tenni nation of
                        Construction grants to Omran Holding Group (AUD-CG-XX-
                        XX)

     Thank you for the opportunity to provide comments on the subject draft audit
     report. We acknowledge that the original focus of this audit was the Department's
     selection, positioning, tra ining, and oversight responsibilities of Grants Officers
     Representatives (GORs), and that the objective was to determine whether GORs
     are able to successfully perform their assigned grant administration and oversight
     responsibil ities. We also acknowledge that through this effort, grants
     SAF20013CA012 and SAF200 13CAOI4 to Omran llolding Group (OHG) were
     selected as a part of a sample o f grants the O IG chose to review in Afghanistan.
     The OIG' s findings as related to the OHG review indicate a number of areas of
     concern, including misuse of Government funds, significant nonco mpl iance with
     federal regulations, inaccurate financial report ing, and failure to comply with the
     terms of one g rant agreement.
     As the audit team is aware, the Public Affairs Section (PAS) at embassy Kabul has
     implemented a myriad of overs ight processes in an effort to refine the management
     of fore ign Assistance awards since 20 10. Overall, this section has obligated more
     than 975 awards totaling over $270,000,000 under extraordinarily challenging
     circumstances. While we were aware that the OHG had failed to comply wi th the
     terms of one of the g rant agreements, this review provides us with additional
     information about the OHG 's defic iencies we could not have otherwise obtained.




                                               9
                                         2


We have addressed each of the SCA specific audit recommendations (I - 4) in the
attachment to this letter and would like to stress that we remain committed to our
eiTolts to strengthen the oversight and management processes for Federal
assistance awards in cooperation with A /OPE.



Attachment:

      I. SCA Specific Recommendations and Responses




                                        10
                                         3


              Response to the Management Assistance Report
         Termination of Construction Gmnts to Omran Holding Group

                SCA Specific Recommendations a nd Responses

Recommendation 1: OIG recommends that the Bureau of South and Centra l
Asian Affairs immediately terminate grant agreements S-AF200-J J-CA-0 12 and
S-Af200-13-CA-0 14 with Omran Holding Group and deobligate the $5,092,874 in
remaining funds.

SCA/ PPD Response: Concur. The termination letters for each award are
currently in the c learance process. Jn compliance with Grants Policy Directive 53,
the letters will be cleared by L for prior approval. Additionall y, SCA/ PPD will
deobligate all remaining funding from these awards.

Recommendation 2: OIG recommends that the Bureau of South and Centra l
Asian Affairs direct Omran Holding Group to reimburse the Department for the
$ 1,203,426 in unspent funds related to grant agreements S-AF200- 13-CA-O12 and
S-AF200-13-CA-0 14, and verify that the Department has recei ved reimbursement
for all unspent funds.

SCA/PPD R esponse: Concur. Instructions for Omran to return funds overpaid on
awards SAF200-13-CAO 12 and SAF200- 13-CAO 14 are included in the termination
letters ..

Recommendat ion 3: O JG recommends that the Bureau of South and Central
Asian Affairs require the grants officer to determine the allowability of $502,890
in potentially unallowable costs identified by OIG, direct Omran Holding Group to
refund the Department any costs determined to be unallowable, and verify that
funds have been refunded.

SCA/PPD Response: Concur. SCA/PPD wi ll determine the a llowability of
questioned costs once OHG has submitted their final financia l reports.

Recommendation 4: OTG recommends that the Bureau of South and Central
Asian Affairs require Om ran Holding Group to demolish the existing structure at
Balkh Un iversity, at Omran Holding Group's expense, w ithin a reasonable
timeframe as determined by the grants officer and verify that the stmcture has been
demolished with no cost to the Department.




                                         11
                                          4


SCA/PPD Response: Concur. In the termination letter for award number
SAF200-IJCAO 12, O IIG has been instructed to demolish the existing structure at
Balkh University no later than October 3 1, 2014. OHG is also required to provide
photos of the site to demonstrate that the building has been demolished and the
debris removed.

Recommendation 5: OIG recommends that the Bureau of Administration, Office
of the Procurement Executive, develop Depmtment guidance regarding the use of
Federal assistance funds for overseas construction, includ ing the use of appropriate
procurement vehicles, such as contracts, f(>r construction. Until such guidance is
developed, no construction grants should be issued by the Department.

SCA/PPD Response: We defer to A/OPE to respond.




                                         12
                                                                   Appendix B
Bureau of Administration’s Office of the Procurement Executive Response to
                         Recommendation 5

                                                    United States Department of State

                                                    Washington, D.C. 20520




UNCLASSiFIED MEMORANDUM
                                                         September 3, 2014

TO:                OIG/AUD - Nonnan P. Brown

FROM:              A/OPE/FA -Jeffrey D.    Johns~
SUBJECT:           Draft Management Assistance report - Termination of
                   Construction grants to Omran Holding Group (AUD-CG-XX-
                   XX)

We appreciate the opportunity to review and provide comments on the draft
Management Assistance report, "Termination of Construction grants to Omran
Holding Group (AUD-CG-XX-XX)." As your audit team knows and understands,
the Department of State has a complex and diversified federal assistance portfolio
which is dependent on standard policies and procedures. These policies and
procedures are promulgated through regulation, grants policy directives, The
Federal Assistance Policy Handbook and training courses provided by A/OPE.
The Federal Assistance Policy Handbook broadly outlines the requirements for
construction grants for the Department and A/OPE acknowledges that the
requirements should be strengthened. Additionally, the Department's authority to
implement construction projects may be included within the specific Statutory
Authorities and/or appropriation's language. We are working with the
Department's Legal Advisors on determining which Statutory Authorities and
appropriations expressly allow, or disallow, construction projects with federal
assistance agreement.

We have addressed audit recommendation 5 in the attachment to this letter. We
look forward to working collaboratively with your staff and with our federal
assistance community to continue to build on and strengthen the Departments
policies and procedures. If you have any questions or need additional information
about the response to recommendation 5, please contact Jeffrey D. Johnson,
                                                               [Redacted] (b) (6)
Director, Federal Assistance Division (A/OPE/FA) at 703-812-

Attachment:

   I.   A/OPE Recommendation 5 and Response




                                         13
              Response to the Management Assistance Report
         Termination of Construction Grants to Omran Holding Group

               A/OPE Specific Recommendations and Responses



Recommendation 5: OIG recommends that the Bureau of Administration, Office
of the Procurement Executive, develop Department guidance regarding the use of
Federal assistance funds for overseas construction, including the use of appropriate
procurement vehicles, such as contracts, for construction. Until such guidance is
developed, no construction grants should be issued by the Department.

A/OPE Response: A/OPE concurs with the recommendation. We are working
with the Department's Legal Advisors on determining which Statutory Authorities
and appropriations expressly allow, or disallow construction projects to be
executed with a federal assistance agreement. A/OPE is developing a Federal
Assistance Management Advisory (FAMA) for the Department. The purpose of the
FAMA is gain a greater sense of the amount of construction-based projects that I)
have been implemented, 2) are currently being implemented, and 3) planned to be
implemented by Bureaus, Embassies, and Posts. Once data is received and
analyzed, A/OPE will develop a Department policy on construction including the
use of appropriate procurement vehicles.




                                         14
